                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

 Case Number: 107060018                                                                   Page 1 of 1



         Based upon a proactive review, 1 the Office of Inspector General, National Science Foundation
         (NSF) initiated an investigation of an NSF award. 2 The university has removed the questionable
         costs from the award. Accordingly, this case is closed.




NSF OIG Fonn 2 (11/02)
